No.

IN THE
SUPREME COURT OF THE UNITED STATES

JACOBIEA. GREEN - PETITIONER

vs.

STATE OF LOUISIANA ~ RESPONDENT^)
PROOF OF SERVICE
I, Jacobie Green, do swear or declare that on this date, Jime 8, 2021, as required by Supreme Court
Rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel and on every other person required to be served, by depositing and envelope containing the.
above documents in the United States mail properiy addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Hon. Paul Connick. District Attorney
24* Judicial District Attorney's Office
200 Derbigny St,
Gretna, Louisiana 70053
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 7, 2021
(Signature)

31

